    Depafiment of Health and Human Sefices
            OFFICE OF
       INSPECTOR GENEML




        THE RYAN WHITE CARE ACT:

               CONSORTIA ACTIVITIES




I
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


This report was prepared under the direction of William C. Moran, Regional Inspector

General, and Natalie Coen, Deputy Regional Inspector General, Office of Evaluation and

Inspections, Region V. Participating in this project were:


REGION V                                                                   HEADQUARTERS

Joseph L. Penkrot (Project Leader)                                              Alan S. Levine

Ellen R. Meara (Lead Analyst)

Barbara Butz

Heather Robertson


For a copy of this report, please call (312) 353-4124.

Depatiment of Health and Human Sefices
        OFFICE OF
   INSPECTOR GENERAL




    THE RYAN WHITE CARE ACT:

           CONSORTIA ACTIVITIES
                   TABLE                    OF CONTENTS
                                                                                                                PAGE

INTRODUCTION         . . . . . . . . ...0....        . . . . . . . . . .. ’””””””       ““”””””””            ““” .,.    1

CONSORTIA      ACrMTIES            . . . . . . . . . . . . . . . . ........       ‘“’”’”””        ““”” . . . . . .
 3


                               Collected        . . . . . . . . . . . . . . . . . . .. ”” ”” ””. ”.. ”s””””3

    State Title IIConsortia        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..*o.      ”oQ04



APPENDIX


k   HIV-Related               Categories        . . . . . . . . . . . . . . . . ......o.co.”.”o..oA-l

                         INTRODUCTION

PURPOSE

This inspection will describe how consortia spent Ryan White funds in fiscal year (FY)
1992, any unique activities undertaken, and any barriers they face in accomplishing
their missions.

BACKGROUND

Title II of the Ryan White Comprehensive AIDS Resources Emergency (CARE) Act
of 1990 provides formula grants to States and Territories to improve the quality,
availability, and organization of health care and support services for individuals and
families with Human Immunodeficiency Virus (HIV) infection. The Ryan White
CARE Act is administered by the Health Resources Administration (HRSA) within
the Public Health Sefice. One major goal of Title 11funding is to establish
community-based, coordinated, continuums of care to which everyone with HIV would
have access. States have the option of using Title II funds in one or more ways.
However, States that report 1 percent or more of all AIDS cases nationally must use
                                                           at least 50 percent of their
                                                           funds to operate consortia.
                                                           The consortia option allows
                                                           States to establish consortia
     Title II Expenditures                                 consisting of public and
                FY 1992                                    nonprofit private
                                                           organizations to assist in the
                   [53%)	
                                                           planning, development, and
                                                            delivery of comprehensive
                                      � rl—f”’——’




      (
                                                            outpatient health and
                                      Eh”--’-”              support services. States have
                                      Esb’—’=               considerable leeway in
                                      � ’—’—”               contracting with these
                                                            organizations to provide
                                                            services. For example,
                                                            California has 26 consortia,
              (33%)	
                                                            while Washington has only
                                                            one consortium.

In FY 1992, 43 States received Title II funding for consortia. Consortia spent a total
of $51,970,653 in FY 1992, or 53 percent of all Title II expenditures. The chart above
shows ‘the ‘breakdown of spending-for each of the Title 11‘options and also shows the
percentage of Title 11 funds spent for admintstratton.




                                             1

SCOPE AND METHODOLOGY

All analysis for this report comes from data included in FY 1992 year-end reports
from the States, and from data collected for related Ryan White reports. In addition.
we asked States to identi@ how they spent FY 1992 Title II consortia and home and
community based funds for each service catego~. The HRSA defined Ryan White
service categories for States in their FY 1992 Application Guidance.

However, when explaining how grantees must report their use of Ryan White Title 11
funds, HRSA’S Application Guidance offers information that may appear unclear to
grantees. As a result, States reported consortia data in different ways, making
comparisons difficult.

In addition, year-end reports were not available for many States. States often
submitted no year-end report, or submitted either fourth quarter FY 1992 reports (Jr
first quarter FY 1993 reports as if this should meet the requirement for a year-end
report. For the purposes of this report, we assume that States with missing reports
have not submitted a year-end report at this time. & a result, there is very little data
for 11 States, more than one-fourth of the States with consortia.

When collecting data for “The Ryan White Act: FY 1992 Title I and Title 11
Expenditures,” we found that very few States included the aggregate funding
information required of grantees in their year-end reports. As a result, we had to
solicit funding information from each State. Expenditure figures reported to us often
differed from the total grant amounts received by States.

This study is not an evaluation of the Ryan White program or any individual grantee.
We did not ask for explanations of why funds were spent as they were, or obtain any
description of the services grantees provided, including their quality or effectiveness.
Nor did we independently verify the consortia expenditures States reported to us.

This study is one in a series of studies on the implementation    of the Ryan White
CARE Act. The other reports are:

   .    Funding Formulas (OEI-05-93-O0330);

   o    FY 1992 Title I and Title 11 Expenditures     (OEI-05-93-00331);

   .	   FY 1992 Special Projects of National Significance - Expenditures   by Semite
        (OEI-05-93-O0332); and,

   .    Technical Report of 1992 Expenditures       (OEI-05-93-O0334).

This inspection was conducted in accordance with the Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.



                                             2

                   CONSORTIA                               ACTIVITIES

OVERVIEW          OF THE DATA COLLECTED

Based on State year-end reports and the funding information States provided, there
are common elements in many of the States’ consortia activities. Most States spent
the largest portion of their FY 1992 consortia funds on case management or medical
care. Thirty-three percent of all consortia funds were spent on case management, and
15 percent were spent on medical care. States also used substantial portions of their
consortia funds for a variety of activities ranging from pharmaceuticals to client
advocacy. These HIV-related activities are defined by HRSA’S service categories,
which are shown in Appendix A.

Another area where States spent a significant percentage of funds is administration,
and planning and evaluation. 1 We found that 18 States spent more than 10 percent
of their FY 1992 consortia dollars on administration, and planning and evaluation. Six
States spent over 20 percent of their consortia dollars on administration, and planning
and evaluation, with one State spending 100 percent of its consortia funds on planning
and evaluation.

In addition, many States described considerable efforts in planning, developing, or
refining management information systems to facilitate data collection and meet HRSA
requirements. Because these descriptions are similar, we do not discuss management
information systems in the State summaries of consortia activities.

Many States listed similar barriers to providing consortia services. The most common
barrier mentioned is lack of funds. Eight States described barriers to funding specific
consortia activities. Another common barrier was the difficulty recruiting providers to
serve persons with HIV. Some primary care providers and dental providers do not
want to accept HIV positive clients. Some providers who are willing to serve these
clients, do not want to be identified in HIV service provider directories developed by
consortia because they fear the stigma of being an AIDS provider. Five States
mentioned specific problems collecting and reporting data about their consortia
activities. These were the most common barriers, but States described a long list of
obstacles ranging from concerns about conflict of interest within consortia to difficulty
in reaching more clients eligible for services.




   1 The RyanWhiteCAREAct doesnot placeanyceilingon the percentageof fundsthat emaortiamayspendon
                                                                                                            and
administration,and planningand evaluation.In addition,readersshouldnote that someStateadefine“administration”
“planningand evaluation”morebroadlythan the RyanWhiteCAREAct.


                                                          3
STATE TITLE II CONSORTIA

A table for each State follows showing how Title II consortia funds were spent, a
narrative describing individual consortia activities, and any barriers they face in
accomplishing their missions. Due to rounding, figures shown in the tables may differ
slightly from what States reported, and percentages may not total 100. The
expenditures are shown in rank order in the tables.

Alabama ($54,869) established four                                                                          %
                                                                 Categoty                 I   Spent     I
consortia during FY 1992. Most
Alabama Title II consortia funds were                       MediealCare                   !   $14,478 ~ 26.4
spent on medical care and case                              CaseManagement                    $14,180   25.8
management. 2 Alabama’s report did
                                                            Housing&sistance                  $6,712        12.2
not describe specific consortia activities.                                               I
                                                            Pharmaceuticals               !   $4,601        8.4
                                                                                                        I
Alabama requested technical assistance                      Planningand Evaluation            $3,S63        6.5
to help implement the Uniform                                                                               4.8
                                                            Transportation                    $2,645
Reporting System. They requested that
HRSA staff make periodic site visits to                     MentalHealth                      $~316         4.2
                                                            Treatmen~erapy/Counaelirrg
help Alabama discuss its progress
towards goals they have set.                                Administration                I   $1,931
                                                                                                        I
                                                                                                            3.5

                                                            FoodBank/HomeDeliveredMeals       $1,872        3.4
                                                            Education/RiikReduction            $718         1.3
                                                            PersonalHygiene/COBRA                           1.3
                                                                                               $684
                                                            Payments                      I             I
                                                            ComputerSupplies              !     $650    !   1.2

                                                            DurableMedicalEquipment       I     $368    I   0.7
                                                            DentalCare                          $150        0.3

                                                            Total                             $54,868       100




   2    In this report,we use the term“most”to meanmorethan 50 percent,


                                                        4
                                                                                             Spent       %
Alaska ($121,737) sewed approximately                                   .egory
                                   4-:-1-               E
                            rtla wnwn                                                                    30.1
325 people through 2 conso]. “ .                           --- .,.-,.”,a”..=”t
                                                        Ii LaXMalla&.                       $36,696
                                                                    u....
cover the State. The majority 01                        II                                  $20,710      17.0
Alaska’s consortia funding contributes to                    Continuationof HealthInsumnm
                                                                                            $15,513      12.7
case management, continuation of health                      pharmaceutical

                                                        I
insurance, and pharmaceuticals. The                          MentalHealth                   $10,727       8.8

Alaska report identifies continuation of                     Trexment~eWY/~unSefing

                                                                                             $8,577       7.1
 health insurance coverage as a growing’                     Administration
need.  Although  this service is expensive,                                                  $8,577        7.1
                                                             Planning& Evaluation
h allows Alaska to save on medical care                                                                      6.8
                                                                                             $8,244
 costs over time by decreasing the                           Edu@io@isk Reduction
                                                                                              $7,445         6.1
 number   of clients   who have   their   health              MedicalCare
 care paid by Medicaid   or other public                                                      $3,522         2.9
                                                              DentalCare
 payers.  One consotiium    conducted   a                                                                    1.4
                                                                                              $1,727
 study looking at characteristics     of clients.             Transportation
                                                                                             $121,738        100
 They found that 35 percent of clients                        Total
 had been homeless at some point, 58
 percent had a history of substance abuse,
 and 22 percent had mental illness or
 dementia.
                                                                                                Spent         %
  Arizona ($484,227) has two consortia                                  Category
  and allocates additional Title II consortia                                                 $165,300        34.1
                                                               CM Management
  funds to rural Arizona counties. Arizona                                                    $113,600        23.5
                                                               HomeHealthCare
  spent most of its consortia    funds on case
                                                                                               $65,300        13.5
  management      and home health care.                         DentalCare
                                                                                               S63,300        13.1
  Arizona’s
   consortia
             report described     how the
             will solicit public and                          1}
                                                                   , 1,-.----- -- als
                                                                Dh.mnlm-lwtics



                                                                   ClientAdVWXY
                                                                                               SYMIOtI
                                                                                               -.-, —  I          I
                                                                                                               11.0
   communi~ input to identify the sefices
   most needed.                                               I Administration
                                                                                               $17,727
                                                                                                         I       =!
                                                                                                                ‘1
                                                                                                                .3.7


   Arizona identified the need for technical
   assistance regarding data collection
                                                              l~=jj=j=[
   under the Uniform Repotiing System,                        II Day/Respitecafe
                                  ma                                                                               100
   and how to promote    sefices  a ‘              ,.         1~                            I s484,227 I
    identify cases in rural Arizona counties.                 IL---
    They had some difficulties with a
    contractor who was providing home
     health services. Due to delays in service, they discontinued the contract.




                                                                   5

Arkansas ($460,713) has five consortia.

Arkansas spent most of its consortia

                                                           Category                I
                                                                                         Spent      I   %       l\

funding on pharmaceuticals. The report
highlighted a variety of setice related             Pharmaceuticals                ! $242,065 I         52.5
                                                                                                                I

activities. Two consortia established
written agreements with Jefferson
                                                    HomeHealthCare                 I  $65,000 !         14.1

                                                                                                                 I

                                                     CaseManagement                    $58,928          12.8

Managed Care Program to serve clients
in their area. This freed up consortia               Administration                    $45,892          10.0

funds to serve other clients. Consortia
also have been involved in:
                      IITransportation
                                                    Medical   Care
                                                                                   I
                                                                                       $35,403 I        7,7
                                                                                                                 I

                                                  IIEducation/RiskReduction        I   $9,230
                                                                                       $4,195 I
                                                                                               r
                                                                                                        2,0
                                                                                                        0.9
                                                                                                                II
  �     making arrangements with                                                   I
        physicians for primary care;                 Total                             $460,713         100

  �	    negotiating contracts for
        pharmaceuticals;

   �	   developing agreements with State and Federal agencies to decrease the amount
        of time it takes for eligibility determination for all types of public assistance;

   �    setting up support groups and in-semice training;

   �	   developing brochures to help clients understand entitlement             programs in their
        counties;

   �    negotiating contracts for AIDS related blood testing and,

   �    arranging transportation.

In addition to these activities, one consortium has increased access to case
management     services by allowing clients to contact the case manager through                  a 24
hour toll-free pager system.

Specific administrative   activities include:

   �	   planning for a computerized  Local Area Network, to allow case managers to
        track client progress more easily, and m collect data for reports more easily;

   �    using a needs assessment     to expand     the mix of services offered;        and,

   �	   developing protocols    for treating    patients     depending   on what criteria     the
        patient meets.




                                                   6

The report mentions two administrative barriers to consortia activities for the year.
First, their peer review efforts have not gotten off the ground. Second, a
computerized    data system was not ready because the consortia could not order the
needed equipment until April of 1993.

Cdifomia ($7,581,153) served 58 local                      Category                      Spent       70

counties and 1 city through 42 consortia.

They added four new consortia in FY                 case   Management                 $3,320,935     43.8

1992. The consortia spent most of their             MedicalCare                        $716,380      95


funds on case management and medical                                                   $400,601      53

                                                    HomeHeaIthCare
care. California references its first year-

                                                    HousingAssistance                  $397,287      5.2

end report for description of ongoing
activities. The second year report                  Emergenq FinancialAssistance       $368,599      49

centers around new consortia activities.            Administration                     S325,269      43


                                                    Tranqxxtation                      $311,667      41

In California, the Office of AIDS
contracted with an organization to assist           MentalHealth
                      $300,321      40

in development of consortia. The five               Treatmen~erapy/Counseling
major activities for the contractor                 Feed Bank/HomeDeliveredMeals       $274,507       3.6


include:                                            HealthInsurance& Miscellaneous     $258,533       3.4

                                                    ClientAdwx3cy                      $240,137       3.2
   �    facilitating and training consortia
        members;                                    Buddy/Companion
                                                                  Semite                $227,582      30

                                                    Pharmaceuticals                     $138,227      I.s
   �    developing strategies to recruit
                                                    DentalCare                          $100,511      [3
        and maintain membership and to
        clarify consortia/fiscal agent roles;       Day/RespiteCare                     $72,937       10

                                                    Other Counseling/Not
                                                                       Mental           $52,578       ():
   �    providing peer support by                   Health
        developing, linking and                     In-HomeHospiceCare                  $22,681       ill

        distributing models of consortia

                                                    Education/RiskReduction             $22,598       03

        organizational and operational
        structures, functions and                   SubstanceAbuseTreatment             $12,711       ():

        procedures;                                 DurableMedkd Equipment              $10,268       01

                                                    ResidentialHospiceCare               $6,826       01
   �	   training for the Health Insurance
        Premium Payment pilot program               Total*                             $7,581,155     1(M)
        and reimbursement of
                                                �   Thistotal doesnot include$26,101,spent by twoconscmM
        administrative costs; and,                  whohad not submitteda report of expenditures.

   �    facilitating meetings throughout
        the year.


California’s report also described some highlights of service-related consortia activities.
During FY 1992, consortia became eligibl~ o~ganizations to apply for and receive


                                                7
formula-based allocations for the Housing Opportunities for Persons With AIDS
Program. Another unique aspect of the California consortia istheir role in
tuberculosis (TB) prevention. The Office of AIDS has required the local TB
Controller or designee to be a member of the local consortia by the start of the third
year of Title II funding. The goal of involving the TB controller is to foster an
environment that promotes treatment compliance.

California reported that its biggest challenge regarding delivering services through
consortia is that they do not have enough funds to hire staff. To fill in the gaps,
consortia use in-kind support and volunteers.

California’s report also described administrative activities for the year. In addition to
routine administrative activities, consortia representatives attended the Title 11 CARE
Act Rural Capacity Building Conference for consortia, service providers, fiscal agents,
people with HIV, and at-risk populations in California. This conference led to the
organization of participants into the California Rural HIV/AIDS Association.

Colorado ($552,830) served over 1,000
clients through four consortia. The
                                                      Catego~                   I    Spent
                                                                                               ,
                                                                                                   70

                                                                                                          1

majority of clients are served through            CaseManagement                    $423,634       76.6
the Metro Denver AIDS Services                 Administration                       $49,532        9.0
Consortium. The consortia spent more
                                                  MentalHealth                      $35,497        6.4
than three-fourths of their funds on case         Treatmentfierapy/Counseling
management.
                                                  MedicalCare                       $31,947        5.8

Although Colorado’s report gave little          In-HomeHospiceCare     ! $7,690     1.4
                                                                                  I     II
detail about specific services, it described    DentalCare                $4,530    0.8
some of the barriers to providing
                                                Total                    $552.830   100
semices through consortia.     There is a
need for more case management        for
rural residents.  One consortium had
difficulty meeting its objectives because it had to remove funding and change the lead
agency from a community based organization to the local county health department.
This caused another community based organization to leave the consortium.




                                             8

Colorado devoted most of its year-end report to describing administrative    activities.
Specific administrative activities include:

  �    meeting with consortia members;

  �
   establishing quality assurance programs within each consortium using means
       such as site visits, surveys and peer review and,

  �
   investigating a response to needs for long term care housing, and the need for a
       medical management clinic.

Comecticut ($597,171) sewed an
                                                      Categoty               Spent         %
estimated 400 unduplicated clients in 65
towns in the State through five consortia.    CaseManagement                $3S1,578       63.9
Consortia spent nearly two-thirds of their    Administration                $61,4S6        10.3
funds on case management.
                                                  MedicalCare               $59,432        10.0

Consortia used second year funding to          Transportation              $46,675   7.8
add case management positions that             HomeHealthCare              $34,000   5.7
target populations such as Latino
                                               Other Cmmaeling/Not
                                                                 Mental    $6,000    1.0
communities, pediatric AIDS projects,          Health
and persons discharged from
                                               FoodBanWHomeDeliveredMeals   $5,000   0.8
correctional facilities. The funds also
contributed to semices such as                 InsurancePremiumPayments    $3,000    0.5
physicians’ services, laboratory services,     Total                      $597,171   100

out-patient treatment, prescription drugs,

nursing services, dental care, diagnostic

screening and home health. Consortia

added support services such as dietary counseling, food delivery, health insurance

assistance, and expanded transportation.    They are in the process of developing a

quality assurance/retiew process, and recruiting more persons with HIV/AIDS to be

members of consortia.


Connecticut mentioned several challenges consortia face. Consortia are having

difficulty meeting the great financial demands for transportation services. Also, there

are questions about who has liability when subcontractors provide these support

services.





                                             9

Delaware ($53,800) served 262 persons
through one State-tide consortium made               Category                    Spent       %
up of 44 members. They spend most of
                                                SupportSerncea”                 S18,500      34.4
their money on support services, mental
health services, and substance abuse            MentalHealth                    $8,000       14.9
                                                TreatmenVI’hemPY/GunseIing
treatment. Delaware’s report gave little
 detail about activities except that they       SubstanceAbuseTreatment         $6,300       11.7
 hope to expand the consortium to               EmergencyFinancialAssistance    $16,000      29.7
 include all who provide services to                                             $5,000      9.3
                                                Administration
 persons infected with HIV.
                                                Total                           $53,800      100

                                            �  Tlds includesbuddy/companion
                                                                          seMces,clientadvocacy
                                            aeMcea,non-mentalhealthcounseling,foodbankservic=~and
                                            transportation.



The District of Columbia ($684,970)
served 739 persons through one                          Category                  Spent       %
consortium. The consortium spent most
                                                 CaseManagement                 $409,196      59.7
of its funds on case management.
Among its case management activities,            Planningand Evaluation          $137,ss7     20.1
the consortium funded organizations to           Administration                  $92,240      13.5
provide targeted case management for
                                                 HousingAssistance               $45,647      6.7
women, children, and other special
populations such as homeless and                 Total                           $6s4,970     100 1.
substance abusers. The consortium
developed protocols for case
 management of women and children.

 The consortium conducted a variety of other service-related activities. It received a
 grant to coordinate an early intervention program for persons with HIV in particular
 areas of the District. This will include testing with pre and post counseling, primary
 care, and psychosocial services. The consortium also funded a housing coordinator to
 administer the Tenant Assistance Program. The housing coordinator also established
 agreements with rental agencies, coordinated municipal funds to help persons with
 HIV, and applied for additional grant funds from other sources. The housing
 coordinator created a database of available housing that is now being adapted to be
 used in conjunction with the case managers’ information system.

 The District of Columbia report mentioned several obstacles to the success of service
 related activities. The consortium experienced problems due to the discontinuation of
 some matching funds it was using for one demonstration site, and difficulty filling a
 case manager aide position. Another barrier was that the timetable for processing
 Title 11 applications made it difficult to complete a competitive grant making process.
 The District of Columbia consortium also feels that minority HIV/AIDS semice
 providers have trouble competing for and managing funds available in the District.


                                                10
Within the housing area, some District of Columbia administrative difficulties delayed
implementation of the city-wide Supported Assisted Housing Program.

Florida ($5,833,059)3 has 10 regional
consortia. Florida spent most of its Title                    Category                    I        Spent     I           ‘%
II funds on case management, medical
                                                         bse Management                   ! $1,715,444 [                 29.4
care, and pharmaceuticals.  Women
represent 25 percent of those receiving                  kfediealCare                     \ $899,156 I                   15.4
care through the consortia. Children                                                                                     14.8
                                                         Pharmaceutiak                    ! $861,504 I
account for 4 percent.                                                                                                   10.1
                                                         Administration                   I $590,063 I
The consortia provide a wide range of                    DentalCare                               $355,137               6.1

services from direct medical care to bi-                 HomeHealthCare                           $260,898               4.5
monthly infectious disease consultations.                                                         $190,485 !             3.3
                                                         HousingAssistance
Case managers must meet daily, wee~y,
                                                         Transportation                   I $181,292 \                   3.1
and monthly semice goals, and consortia
believe they served more clients because                 MentalHealth                             $151,479                2.6
of this. Florida used rollover money to                  Treatment~empy/tiunseling
provide dental awareness education and
mental health services through a mental
                                                         Other Counseling/NotMental
                                                         Health                           I
                                                                                          I
                                                                                                  $147,778
                                                                                                                 I
                                                                                                                          L5

health therapist. At least one                           [nsursnceContinuation            I $137,884                      2.4
consortium used funds for insurance                      FoodBank/HomeDeliveredMeals I            $135,423 I              2.3
coverage. Also, money for
                                                         SubstanceAbuseTreatment          !       $95,935                 L6
transportation has increased access to                                                                           1
care. One consortium created a                            ClientOutreachand Volunteer             $67,992                 1.2
comprehensive service directory in                        Setices
English, Spanish, and Creole. The                         DusableMedicalEquipment                  $34,065                0.6
directory is being distributed county                     Day/RespiteCare                          $5,890                 0.1
wide.
                                                          RehabilitationCarp                  !    S2.633            I    0.1

While conducting a recent review, a peer         Total
                                                 —
                                                                         $5,833,058  too      I
review committee found that the State
had difficulty coordinating Title I
planning councils and Title II consortia. This group recommended developing data
collection for consortia to facilitate coordinatmn. Other challenges for Florida are that
spending    of consortia    dollars is behind     prt~jectlons,     and consortia     also face obstacles
identifying   providers    such as dentists.




    3 Floridalumpedtogetherall TMe11funding,so the moncvamounrspresentedhere exceedwhatwasspenton consortia
 alone.


                                                       11

Georgia ($1,482,554) spent most of its
consortia funds on pharmaceuticals.
Georgia did not submit a year-end
report.                                     ~                                   , ‘~7         ‘3’
                                                CaseManagement                    $513,638    347
                                                DurableMedkalEquipment            $125,427    8.5
                                                Administration                    $49,375     33

                                                Transportation                    $37,853     2.6
                                                Other                             $10,794     07

                                                Total                            $1,482,554   100




Guam has no consortia.


Hawaii ($175,884) serves clients through
one consortium. A year-end report is                    Category                    Spent      %
not available for Hawaii, but they did
file a final quarterly report with some         Administration                    $40,884     232
information about program activities.           HousingAssistance                 $36,939     21()
Hawaii spent most of its consortia funds        CaseManagement                    $19,912     113
on administration, housing assistance,
                                                MedicalCare                       $16,166     92
and case management. One unique use
of funds in Hawaii was that the                 DentalCare                        $16,166     92
consortium used funds for emergency             Other (EmergencyItems,Housing
supplies and housing assistance following       Aaaistamx,Acupuncture&             $12,742     72
Hurricane Iniki.                                MassageTherapy)
                                                MentalHealth                                  bt)
                                                                                   $10,568
                                                Treatment/I’herapy/Counseling
                                                FoodBank/HomeDeliveredMeals        $7,854     ‘is
                                                Pharmaceuticals                    $5,575      \2
                                                Transportation                     $3,192      18
                                                Adoption/FosterCare                $3,115      18
                                                HomeHealth(Me                      $2,770      lb


                                                Total                             $175,883     1()()




                                            12

-..    .
ldaho has no consortia.

Illinois ($1,860,633) served clients                                                                      1
                                                    Category                      Spent           %
through 4 consortia. The consortia spent
most of their funds on administration          Administration                    $515,635         27.7
and case management.       Although the        CaseManagement                    $451,714         24.3
State filed no year-end report, it
                                               MedicalCare                       $360,345         19.4
submitted a final quarterly report.
                                               Housingksistance                  $231,598         12.5
The consortia met most of their goals          Food Bank/HomeDeliveti M~ls       $.176,770        9.5
regarding sencices such as case
                                               support seMees                    S74,525          4.0
management, housing assistance,
substitute care, and in-home services.         ClientAdvocacy                    $12,000          0.6
They also improved transportation for          MentalHealth                                       0.6
                                                                                 $10,345
clients.                                       Treatment~em~/~unsehng
                                               Transportation                    $10,187          0.6
 One service Illinois consortia hope to                                           $9,918          0.5
                                               LegalSerw@a
 improve is providing dental care. They
                                               DentalCare                         $5,553           0.3
 have difficulty recruiting dentists. One
 consortium also had difficulty recruiting      HomeHealthCare                    $2,043           0.1
 primary care physicians to seine persons       Total                            S1,860,633        100
 with HIV.

 Illinois consortia also concentrated on a
 variety of administrative activities such as improving quality assurance, developing
 minimum standards of case management, and impro~rtg data collection capabili~
 through new software or data collection forms.

 One consortium created a newsletter and established an advisory board with a peer
 review subcommittee. Some consortia members appeared at public hearings and
 media conferences.

  Indiana ($309,194) served 417 HIV

 infected individuals through one                  Category                  I      Spent     I     %
        II
 statewide consortium.     The consortium

 spent almost of its money on medical         MedicalCare                    I $173,549 I 56.1
            II
 care and administration,
 43 percent respectively.
                             56 percent and
                             The consortium
                                              Administration
                                              DentalCare
                                                                             ! $134,643 ~ 43.6
                                                                                   $865            0.3

                                                                                                              !

 placed a special emphasis on targeting

                                              MentalHealth                                         <0.1

 women and children for setices,                                                    $137
                                              T~tment~emw/Gll~gelin@
 recruiting dentists, and recruiting
 primary care physicians. Service
  providers have been able to serve all
                                              II
                                              Total                          I $309,194            100
                                                                                                              [

 women and children who have requested
  service, but they believe that man~ women postpone testing for HIV.



                                              13

~erepofi    described several obstacles tosefice-related   consortium activities. The
consortium had difficulty recruiting dentists, and one area of the State still has a
shortage of primary care physicians. Also, although the Indiana consortium reports it
has no trouble targeting semices to all the women and children requesting help, many
other people who wanted services remained on the waiting list because Title II funds
were insufficient to provide the needed services.

Indiana conducted a variety of administrative activities with consortia, including an
evaluation of its activities through needs assessments, suxveys of clients and providers,
and public hearings. Indiana’s report also includes a detailed list describing monthly
activities such as meetings and conferences attended, promotional activities,
publications, and similar activities.

Iowa ($90,000) served an estimated                    r
                                                               Category                  I    spent    %
1,120 clients through 3 consortia.
Consortia spent nearly half of their funds                CaseManagement                     $43,555   4s.4
on case management.     Medical care                      MedicalCare                        $16,04S   17.8
constituted    another     large expenditure    for
                                                          Emergenq Fhancial Assistance       $8,744    9.7
lowa consortia.        About 25 percent of the
services provided       through   the consortia           Administration/Planning/Evaluation $6,009    6.7
included    assistance    to women, children              Transportation                     $5,9s4    6.7
and families.      One consortium      hosted
                                                          DentalCare                         $5,039    5.6
events to raise money and public
awareness     about AIDS. Another           way           Day/RespiteCare                    $1,969    2.2
consortia    have worked to increase                      Other Counseling/NotMental
                                                                                             $1,706    1.9
awareness was through a newsletter.                       Health
                                                          Pharmaceuticals                     $946     1.0
The biggest barrier      faced by Iowa
                                                          Total                              $90,000   100
consortia is the growing number of                                                                            J
clients with limited funds. The report
describes Iowa’s desire to open a new
consortium in the western part of the State where the need is great.                     Iowa also hopes
to improve accuracy of reporting for consortia services.

Kansas has no consortia.

Kentucky has no consortia.




                                                      14

Louisiana ($1, 124,648) submitted     no
report on the number of consortia or                     Category                    Spent       %
their specific activities. Most Louisiana
                                                ConsortiaDevelopment/               $343,991     30.6
Title II consortia funds were spent on          VolunteerServices
consortia development      and volunteer
                                                case Management                     $304,517     27.0
services, and case management.
                                                MedicalCare                         $135,276     12.0
                                                                                                        1
                                                EmergencyFinancialAssistance        $118,418     10.5
                                                 ClientAdvocacy                     $84,182      7,5
                                                                                                        1
                                                ResidentialHospiceCare              $73,005      6.5
                                                Transportation                       $59,099     5.3
                                                 Administration                      $6,160      0.6

                                                 TotaI                              S1,124,648   100



Maine ($163,401) has four consortia but

submitted no report on their specific

                                                         Category               I     Spent       %
activities. All Maine Title 11 consortia

funds were spent on case management.
            CaseManagement                     $163,401     100
Statewide, Maine consortia provided

over 400 encounters with 295 clients.





Maryland ($1,828,532) has four
                          Category                     Spent       %
consortia. Most Maryland Title II

consortia funds were spent on medical
           MedicalCare                         $686,680    37.5
care and case management. In 1992,
              CaseManagement                      $458,770    25.1
1,555 clients were served by Maryland
           Administration                      .$202,747   11.1
consortia. Maryland’s annual report

                                                 EmergencyFinancialAssistance        $153,800     8.4
covers the period 7/1/92 to 6/30/93.

                                                 DentalCare                          $142,000     7.8
Maryland also described consortia
               MentalHealthTreatment/              $84,136      4.6
activities, including public hearings on
        Therapy/Counseling
the needs of people with HIV/AIDS and
           HousingAssistance                   $67,501      3.7
the proposed use of Title II funds,
                                            1
                                                 Outreach                       I    $32,898 !    1.8
consulting with service providers

regarding funding priorities and
                Tota[                          I $1,828,532      100
activities, and publishing a newsletter for

local medical providers, clients and

religious leaders.





                                               15

Massachusetts ($1,195,000) has 16

consortia. Most Massachusetts Title II
                                                               70
consortia funds were spent on case

                                                            Category             I    Spent     I            jl
                                                  CaseManagement                     S657,250         55
management    (including client advocacy,

and which may include outreach, buddy/
           Transportation                     $167,300         14
                                                                                                             >
companion services, non-mental health
            Administration                 ! $131,450 I         11     II
counseling and education/ risk

                                                  MentalHealthTreatment/         ]    $71,700 I       6      II
reduction). Statewide, consortia served
          Therapy/Counseling             I            I              II
1,545 clients. The Massachusetts

                                                  FoodBankiHomeDeliveredM=ds          $59,750         5
Department of Public Health conducted

a meeting to discuss implementation of
           HousingAssistance                   $35,850         3
HIV Care Consortia programs. This
                Planningand Evaluation              $23,900         2
meeting addressed both service providers

                                                  EmergencyFinancialAssistance        $23,900         2
and consumers. Local consortia also

held meetings to educate and engage

providers and clients in consortia

                                                  Phartnaceutieals
                                                  Acupuncture/Massage
                                                                                 I    $11,950
                                                                                      $11,950
                                                                                                  I
                                                                                                       I
                                                                                                       1
                                                                                                                  I
activities.
                                      NutritionalCounseling
                                                                                                  I

The Massachusetts consortia treat a

                                                  -rOtal                         I   $1,195,000       1(h)

diverse group of clients. While one

consortium mainly serves intravenous

drug users, another focuses on children with HIV and their families. As a result,
Massachusetts   consortia developed several initiatives to meet the needs of their clients
and to respond to problems they face. Among the consortia initiatives are:

   �    hiring bilingual/bicultural   staff to serve Haitian, Latino, and Cape Verdean
        populations;

   �    developing a volunteer program to provide practical supports and buddy
        services;

   �    providing support for entire families by using family-centered case manage me n(,
        and holding support groups for children both infected and affected by AIDS:

   �    co-sponsoring a conference on women, substance             abuse and HIV, and
        establishing   a support   group for women:   and,

   �    working in conjunction with a local church to expand a frozen meals program.

Specific problems      faced by Massachusetts   consortia    include:

   �	   overcoming the overall lack of resources and institutional         supports      to fully
        develop the needed continuum of semices;

   �	   defining the appropriate roles of the lead agencies, contracted agencies,
        consortium leaders, and commit tee structures in consortia activities; and,



                                                16

  �	    integrating consumer advisory boards into the operation of consortia. A new
        State requirement mandates 25 percent representation on the consortia
        governing body.

Michigan ($912,929) has five consortia.

The summary expenditure report                                  Category                 Spent

indicates almost all Michigan Title 11

consortia funds were spent on case

management. Michigan monitors

consortia through site visits and quality

assurance activities. Michigan’s                    ~                                              ,::,

Continuum of Care Coordinator                           Total                           $912,929           1(M)

provides    technical   assistance   to

consortia.


Barriers    faced by consortia     include maintaining    the required      provider-type

representation      in the consortia,    eliminating potential   conflicts of interest by consort          la

members       since they possibly stand to profit by consortia        activities, and encouraging

HIV advocacy groups to provide input to consortia              planning     and activities.


Minnesota ($199,399) has 21 consortia.

Most Minnesota Title 11 consortia funds                         Category                 Spent             %
                                                                                    I              I               II

were spent on case management,

                                                        CaseManagement                  $47,000            216

administration, and mental health
services.                                               Administration                  $30,033            1s 1

                                                                                                                   4

Minnesota consortia have responded to

clients’ needs in innovative ways. One

consortium provides a dental voucher

program. They have entered into an
agreement with Delta Dental of
                                            Counselingand Support
                                            Med@lCare
                                                                    ~ W3,545
                                                                      $16,833
                                                                               I
                                                                                                           119

                                                                                                           lit

                                                                                                                   II

Minnesota to ensure dental care for low
income persons with HIV disease. This
                                            ClientAdvocacy            $16,585                              8.3
                                                                                                                   I

contract has led to an increase in the
number of dental care providers skilled
                                            Dental
                                            Transportation
                                                                    ! $.7,974
                                                                       $4,429
                                                                               I

                                                                                                           4 ()

                                                                                                           2:

                                                                                                                   II

in treating HIV infected individuals.       Total                     $199,399                             100

Other consortia addressed the need for

short term education and support

programs
.-          for persons newly diagnosed

with HIV disease. Five diverse ‘community-based agencies provide these services.

Barriers still remain in providing transportation sefices outside the Twin Cities area.
Because Minnesota Medicaid covers transportation services, they are not reimbursable
by the consortia. However, the consortia report barriers to using Medicaid
transportation services.



                                                    17

Mississippi has   no consortia.

Missouri ($636,442) has one consotiium.                                                 Spent          %
                                                          Category
The summa~ expenditure repofi                                                                          55.2
                                                                                       $351,178
indicates most Missoufi Title 11                 HomeHealthare
                                                                                       $87,582         13.8
consotiium funds were spent on home              Mdkal Care
health care. The consofiium is                                                         $75,787         11.9
                                                 TmnspO~tiOn
 organized into three branches: St. Louis,                                              $43,635        6.9
 Kansas City, and Outstate, which	               MentalHealthTreatment
                                                 ~empy/Counseling
 includes the rest of the State. Statetide,                                             $37,982         5.9
 the consofiium seined 1,070 clients.            HousingAsais~n@
                                                                                        $36,842         5.7
                                                 FoodBanwome DeliveredMeals
 Most consofiium services are delivered                                                  $3,436         0.5
                                                  Dentalam
 on a fee-for-sefice basis with 303 health                                              $636,442        100
                                                  Total                                                             A
 setice agencies and 81 physicians under
 contract to provide medical services.



  Montana ($57,970) has five consotiia.                       Categoty
                                                                                          Spent            %
  Most Montana Title 11 consofiia funds                                                                    28.1
                                                                                         $16,270
  were spent on medical care,                      Mexlkdore
  administration, and case management.                                                    $11,800          20.4
                                                   Administratiotl

  Statewide, the consotiia seined 87                                                      $8,400           14.5
                                                   ~      Management
  clients.                                                                                                  8.1
                                                                                          $4,700
                                                   phamaceutids

                                                                                           $3,200           5.5
   Four of the Montana consortia are local         Dentalcare
   health depafiments, who contracted with                                                 $3,100            5.3
                                                    MentalHealthTreatment/
   the State. These consotiia submitted             ~empy/Counwling
   bills to the State for sefices from                                                     $2,800             4.8
                                                    Housing     ASSiS~ltCe
   providers; their administrative costs were                                                                 4.5
                                                                                           $2,600
    a fixed amount specified under the              MiscellanmmItemsand Sefi=
                                                    (e.g.,linen,monitoringequipment,
    contract with the State.                        g~t-iea, etc.)
                                                                                            $1,800            3.1
                                                       HomeHe.dth~m
    The fifth consofiium, a community-based                                                                   2.9
                                                                                            $1,700
    organization, was awarded funds                    Educatiofiisk Reduction
                                                                                                $900           1.5
    separately. Since’ it was not covered by           FoodBank/HomeDeliveredM-is
    the State contract with the other                                                           $600           1.0
                                                       Tmnqxxtation
    consofiia, it processed and tracked its                                                     $100           0.2
     expenditures. Like the other consortia,           ClientAdv@W
                                                                                            $57,970            100
     it repofis details of expenditures to the        Total
     State, but is reimbursed for actual            IL
     expenses, rather than a fixed, contracted
      amount.




                                                   18

Nebraska ($15,592) has one consortium.
Most Nebraska Title II consortium funds                Categoty               Spent        70
                                                                         I             I
were spent on case management,
                                               CaseManagement                 $6,990       44.9
equipment and vision care. The
consortium served 15 clients in the Tri-       Equipmentand Vkion Care        $2,075       13.3
City area of Grand Island, Hastings and        Transportation                 $1,3s1       8.9
Kearney, located in central Nebraska.
                                               DentalCare                     $1,2s0       8.0

The consortium has hired a Care               Phatmaeeutida                  $1,22s        7.9
Coordinator to continue building the          Outreach                        $s00         5.1
consortium. The Care Coordinator, in                                                       4.6
                                              ClientAdvocacy                  $711
addition to case management
                                              Administration                  $535         3.4
responsibilities, contacted physicians,
dentists, psychologists, counselors, drug     Food Bank/I-IomeDeliveredMeals  $230         1.5
treatment agencies, faith communities,        HousingAssistamx                $203         1.3
and local health departments. The Care
                                              Planningand Evaluation          $192         1.2
Coordinator facilitated a meeting,
bringing together drug/ alcohol treatment     Total                          $15,592       100
center providers, mental health agencies,
HIV/Sexually Transmitted Disease
(STD) representatives, and family planning staff members. This meeting led to a
cross-training conference and fostered collaboration between these entities.

Nevada has no consortia.

New Hampshire has no consortia.

New Jersey ($2,407,708) had six consortia in the FY 1992 reporting period, and has
added a seventh consortium since then. Most New Jersey Title II funds for the six
consortia were spent on case management, medical care, and dental care. (See table
next page.) Statewide, five consortia report providing more than 15,000 services
during the year. The sixth consortium reports serving nearly 1,000 clients.

Some specific New Jersey consortia activities include:

   �	   supporting alternative methods of medical care such as acupuncture,
        chiropractic and nutritional programs;

   �	   publishing a tri-county resource guide to services for people with HIV, and a
        guide to entitlement programs;

   �    placing case managers at community support service agencies;

   �	   instituting an experimental   retinal photography program to detect
        cytomegalovirus retinitis;



                                              19

New Jersey (Continued)
                                                      Categoty              I    Spent      1   %
                                                                                                       II
  �	   installing special phone lines for
                                              CaseManagement                    $577,500        24.0
       hearing-impaired clients; and,
                                              MedhxIlCare                       $509,992        21.2
  c	   integrating early intemention          DentalCare                        $198,361        8.2
       primary care medical services into
                                              Administration                    $187,105        7.8
       methadone maintenance
       programs.                              Transportation                ! $177,431 I        7.4
                                                                                                       II
                                              Planningand Evaluation        ! $152,109 !        6.3
The consortia cite the reluctance of                                                                   II
                                              MentalHealthTreatment/            .$128,823       5.4
county and local hospitals to provide         Therapy/Counseling
primary care services for clients with
HIV/AIDS as a continuing barrier to
                                              SubataneeAbuseTreatment       I
                                                                            I
                                                                                $93,678 [
                                                                                $89,043 I
                                                                                                3.9
                                                                                                3.7
                                                                                                        I
                                                                                                       1]
treatment.                                    Outreach
                                              Day/RespiteCare                   $69,270         2.9
Title II reporting requirements present       Food BanWIomeDeliveredMeals       $37,682         1.6
some difficulties for consortia as well.
                                              ParalegalSeMea                    $36,222         1.5
The consortia directors fear that the
complexity of reporting may discourage        HomeHealthCare                    $27,892         1.2
some individual service providers from        Pharmaceuticals                   $27,646         1.2
participating. Likewise, large providers,
                                              Education/RiskReduction           $26,183         1.1
like hospitals, may not wish to provide
considerable detail about these               Other Counseling/NotMental        $25,098         1.0
                                              Health
expenditures, since they receive a very
small part of their total funding from        ClientAdvocaq                     $18,375         0.8
Ryan White funds.                             In-HomeHoapieeCare                $18,000         0.8

                                              HousingAaaNance                    $5,798         0.2
                                                                            I                          1
                                              RehabilitationCare            I    $1.500     I   0.1    II

                                              Total                         I$2,407,708 I       100 II




                                            20

New Mexico ($63,000) has one
                                                                                I             I %
consortium. Most New Mexico Title II         1!          Catego~

                                                                                I
                                                                                    Spent

                                                                                    $22,0W        34.9
                                                                                                         1
consortium funds were spent on client
advocacy, and outreach. Statewide, the
                                             IIOutreach
                                                 ClientMvoeacy
                                                                                    $19,000
                                                                                              I
                                                                                                  30.1
                                                                                                         II

consortium served 750 clients.

Although New Mexico did not submit a
                                             I
                                             r
                                                 Transportation
                                                 EmergencyFhancial Assistance
                                                                                ,
                                                                                    $17,000
                                                                                    $3,000
                                                                                                  27,0
                                                                                                  4.8

                                               Administration           $2,000     ~~
year-end report for FY 1992, their
                                                                                I
fourth quarter report for N 1992
described several consortium activities.     I Total                 I $63,000 I 100 1[
The consortium emphasized services to
women and children by holding a
“Women with AIDS,” workshop and a “Families with AIDS’ workshop. In addition,
150 consumers and providers attended a statewide HIV/AIDS symposium, with
workshops focusing on treatment issues, systems advocacy, prevention strategies in
rural areas, and rural and cultural barriers to semice delivery.

New York ($8,179,779) has 16 consortia. Most New York Title II consortia funds
were spent on case management, home health care, and sewice planning and
coordination. (See table next page.)

Some New York consortia activities include:

  �	    establishing an HIV/AIDS Network for the Deaf committee, which will develop
        educational materials and brochures, and work toward coordination among
        agencies seting this population;

   �	   making presentations on topics such as HIV/STD, tuberculosis (TB) control,
        hepatitis&UV and behavior modification in the gay community;

   c	   sponsoring a TB/HIV community conference, targeting community members,
        clergy, legislators, school officials, and service providers;

   �    developing a training outline on Native Americans and HIV;

   �	   developing a program for the county prison to provide adequate HIV/AIDS
        training for corrections officers;

   �	   fostering linkages between hemophiliac centers, the Designated AIDS Center,
        medical centers and Community Based Organizations;

   �	   working to open a residential facility that will offer comprehensive          services to
        women with AIDS and their families;




                                             21

New York (Continued)
                                                           Categoty                     Spent               %
  �	    facilitating expansion of
                                                  CaseManagement                       $2,263,633           277
        transportation services for all the                                                         I
        network’s counties;

  �	    developing a resource directory of
        community-based agencies,
        organizations, support groups,            Other Counseling/NotMental           $576,256             7.0
                                                  Health
        primary care providers,
        homeopathic and allopathic
        providers;
                                                  Outreach                        ! $547,799
                                                                                    $439,792
                                                                                                    [
                                                                                                            67
                                                                                                            54
                                                                                                                   II
                                                  Information
                                                  DentalCare                            $406,807            <O
  �	    sponsoring a “Speak-out” where
        persons lfing &th AIDS will               Transportatim                         $395,812            4,3


        voice their needs and identify            HousingAssistance                     $264,522             1:
        barriers to care to an audience of
        elected officials and service
        providers; and,

  �	    advocating against the closing of         TechnicalAssistanceto Providers I $109,301 I               1.3
                                                                                                                   II
        test sites.
                                              II  FoodBanM1-Iome  DeliieredMmls I $109,301
                                                                                             1
                                                                                                             1.3
                                                                                                             03
                                                                                                                   1
                                                  ClientAdvocacy                  ! $64,028 !
New York consortia cite the following                                                                              II
                                                  LegalSemites                          $39,452              ()5
barriers to providing services:
                                                  Buddy/Companion
                                                                Sefi-                    $33,631             {)J
   �	   overcoming special semice needs -
        including counseling and testing
                                                   ProviderTrainingon ClinicalCare I
                                                   Iwlea
                                                                                         $20,696 I           02
                                                                                                                   II
        services, services for inmates,            RecreationalActivities                $10,995             01
        dental services, women’s services,                                               $9,701              01
                                                   In-HomeHospictCam
        Spanish-speaking providers, and
                                                   Day/RespiteCare
                                                                                   I
                                                                                         $9,701
                                                                                                        I
                                                                                                             01
                                                                                                                   II
        mental health semices for HIV-
        positive people who are                    Total                                $8,179,777           100
                                                                                                                   a
        recovering from substance abuse;

        making mental health/psychotherapy        services part of the continuum of se rviccs:

         increasing the number of physicians who provide early intervention and prima v
         care, particularly in rural areas;

         surmounting the obstacle of physicians who are willing to provide semices to
         HIV-infected individuals but who do not wish to be identified;

         guaranteeing   anonymous HIV counseling to those who want confidentiality;

         providing local TB diagnostic testing;


                                              22
  �    addressing   concerns   relating   to HIV-infected     senior citizens; and,

  �	   securing adequate representation        from minorities and persons living with AIDS
       on the network.



North Carolina ($947,421) has 11                             Category                  Spent      ‘%0�


consortia but submitted no report of

                                                           Management                $391,494     41.3

individual consortia activities. Most               case

                                                                                   #
North Carolina Title II consortia funds             HomeHealthCare                 I $231,508 I   24.4 ]]

were spent on case management and                   EmergencyFinancialAssistance      $114,719    12.1

home health care.

                                                    Transportation                    $51,513     5.4

Challenges facing consortia were                    ClientAdvocacy                    $44,504     4.7
outlined at the March 1993 statewide                Administration                    $30,857     3.3
leadership conference, “TIM Impact of
                                                    MentalHealthTreatment/            $28,190     3.0
AIDS in North Carolina.” To date, most              Therapy/Counseling
North Carolina consortia have struggled
                                                    Medical Care                      $18,145     1.9
with issues relating to providing services
and managing funds, without the benefit             Other SupportSetiees              $15,627     1.6
of significant planning and development.            Pharrnaceutieals                  $12,675      1.3
Administrative and development                                                                    0.4
                                                    DentalCare                         $3,932
limitations of the funds have prevented
most consortia from hiring full-time                DurableMedicalEquipment            $3,235     0.3
development and administrative staff.                Day/RespiteCare                    $806       0.1
                                                     RehabilitationCare                 $216      <.01

                                                     Total                            S947,421    100




                                                  23

North Dakota ($90,000) has one
consortium but submitted no report of                                              Spent          %
consortium activities. All North Dakota   II            Categoty

                                            Pharmaceuticals
                                                                              I

                                                                                  $58,500
                                                                                              I
                                                                                                  65.0
                                                                                                         II

Title II consortia funds were spent on
pharmaceuticals and medical care.           MedicalC-are                          $31,500         35.0
                                                                                              r          1

                                          1!Total                             I $Wm I             100 II




Ohio ($703,929) has nine consortia.
More than two-thirds of Ohio Title II                   Categoty                   Spent          %
consortia funds were spent on housing
                                            HousingAmistance                      $492,736        70.0
assistance. Statewide, the consortia
served 2,023 clients.                       Food Bank/HomeDeliered Mm~             $67,913        9.6

                                               MediealCare                         $43,751        6.2
Ohio contracted with Nationwide
                                               Transportation                      $28,777        4.1
Insurance Company as its third party
administrator to develop a                     ThirdPartyAdministrator             $20,935        3.0
reimbursement system for providers of          DentalQme                           $13,200        1.9
services to persons and families with                                                             1.5
                                               EmergencyJ3nancialAsaiitance        $10,497
HIV disease.
                                               MentalHealthTreatment/              $6,086         0.9
                                               Therapy/Counseling
Ohio consortia face several challenges.
                                               RehabditationCare                   $3,809         0.5
Because of funding shortfalls, Ohio
consortia reduced yearly State-                BereavementServi@a                  $3,673         0.5
established limits to between $250-$500        Pharmaw.uticala                     $3,654          0.5
per individual in order to provide
                                               ChildCare                           $2,560          0.4
coverage throughout the program year
without interruption. Peer review              SubstanceAbuseTreatment             $2,300          0.3
processes need to be developed for             DurableMedkalEquipment              $2,013          0.3
consortia as well.
                                               HomeHeahh Care                      $1,600          0.2

                                               ClientAdvocacy                       $425           0.1

                                               Total”                              $703,929        100

                                          �lWa includes$5,053in interestearnedon   the amountset aside
                                           ($698,876)for consortia.




                                          24
Oklahoma ($160,000) has two consortia.
Nearly equal amounts of Oklahoma Title                Category               Spent          %
11 consortia funds were spent on
                                             Pharmaceuticals                 $29,000        18.1
pharmaceuticals, substance abuse                                                        I          i
treatments, administration, planning and     SubstanceAbuseTreatment         $21,000        13.1
evaluation, client advocacy and outreach.    Adminiatration                  $20,328        12.7

                                             Planningand Evaluation          $20,328        127
Oklahoma did not submit a year-end
report detailing specific activities.         ClientAdvocaq’                 $20,328        12.7
                                              Outreach                       $20,328        12.7




Oregon ($280,323) served clients through
                                                   Catego~                    Spent          %
seven consortia organized by regions
around the State. Consortia spent most        CaaeManagement                 $130,000       46.4
of their funds on case management and         HomeHealthCare                 $37,000        13.2
home health care.
                                              AdoptionlFoaterCare            $25,000         8.9

Some consortia used a unique approach         Day/RespiteCare                $20,000         7.1
to increase clients’ access to services.      ClientAdvoeacY                 $15,000         5.4
They distributed vouchers to clients to
                                              MedicalCare                    $15,000         5.4
help connect them with medical care.
Participating pharmacies and care             Emergenq FinancialAaaiitance   $10,OOO         3.6
facilities agree to accept vouchers as        DentalCare                      $8,000         2.9
payment from clients for HIV-related
                                              Transportation                  $6,323         2.3
services. Each consortium has
conducted a variety of outreach               FoodBanIdHomeDeliieredMeala     $6,000         2.1
activities, with one county in particular     HousingAaaiatance               $5,000         1.8
targeting the Native American                 Pharmaceuticals                 S3,000         1.1
population.
                                              Total                          $280,323        10Q




                                            25

Pennsylvania ($1,495,668) served over
4,000 clients through 7 consortia.                  Category                       Spent      70

Consortia spent most of their funds on
                                             Caae   Management                    $365,220    24.4
the following activities: case
management, family home workers,             FamilyHomeWorkem,Volunteer
volunteer training, professional training>   Training,ProfessionalTraining,       $224,097    15.0
                                             and HIV Chmaeling& Testing
HIV counseling, HIV testing, and
                                             Emergency13nancialAaaiatance     I $218,421 I    14.6
emergency financial assistance.
                                             Administration(includingsome         $187,137    12.5
Pennsylvania increased minority              Planningand Evaluation)
participation in consortia and the State     MedicalCare                          $166,064    11.1
wide HIV Adviso~ Council. Each               Planningand Evaluation               $118,717    7.9
consortium is represented on the State
                                             Buddy/Companion
                                                           Services               S44,256     3.0
HIV Advisory Council.
                                             Tranapotition                    I   $42,233 I    2.8
The consortia representatives                Mentalhealth                          $41,787     2.8
contributed to the Advisory Council’s        TreatmentAlerapy/Coun=ling
work toward housing needs assessments,        Outreach                             S27,648     1.9
and other service needs assessments.
                                              HousingAskance                       $19,494     1.3
They also worked to develop
consolidated data collection that would       HomeHealthCare                       $11,070     0.7
meet Federal and State reporting              Education/RiskReduction              $10,143     0.7
requirements.                                                                      $9,579      0.6
                                              SubstanceAbuseTreatment
                                            DentalCare                     $9,098    0.6
Barriers Pennsylvania mentioned include
contracting and program reporting.          ClientAdvocacy                  $704     0.1
                                           +
Some of the consortia contracts were
delayed due to State regulations about
                                            Total                       I S1,495,668 100
how money must be allocated by State
agencies. Also, timely reporting of data
was a problem. How&er: the S~ate hopes to improve this through its new client level
data reporting system and through a newly established statistical position for someone
to monitor and coordinate data collection.
Puerto Rico ($2,840,858) seined its
clients through seven consortia. Puerto
                                                    Categoty
                                                                              1
                                                                                   Spent     I %
Rico spent between 10 and 20 percent           CaseManagement                 ! $528,839 !       18.6
of its consortia funding on the following                                                        12.9
                                               Pharmaceuticals                ! $366,869 !
categories: case management,
                                               HomeHealthCare                 I $363,061 I       12.8
pharmaceuticals, home health care, and
residential hospice care. Puerto Rico          ResidentialHospiceCare             $299,983       10.6
did not submit a year-end report.              MedicalCare                        $265,762       94
Puerto Rico spent money on some                                                              1
innovative services such as nutritional
supplements, legal services, a respiratory
                                               Spentbut not documentedby
                                               subeontrsctots                 I   $264,222
                                                                                             I   93


                                               Administration                 I $206,538 !       73
therapist, and children’s summer camp.                                                                      I


Approximately nine percent of Puerto
                                               HousingAaaktanee               ~ $112,310
                                                                              I $106,366
                                                                                             I
                                                                                                 ~o
                                                                                                            I
Rico’s Title II funding, or $264,222 has
                                               NutritionalSupplements
                                                                                             I
                                                                                                 %7
                                                                                                        41
been spent but has not been
                                               EmergencyFinancialAssistance
                                               MentalHeahltAherapy/CcwtaelingI
                                                                              I   $81,846
                                                                                  $74,119 I
                                                                                             I
                                                                                                 2.9


                                                                                                 ~b
                                                                                                            I
                                                                                                            Ii
documented by subcontractors.
                                             IIDay/RespiteCare                I	 $41,215 I       1.5

                                             n Transportation                 ~
 $37,759     I   13
                                                                                  $32,544 I      1.2

                                             IIDentalCare                     I
                                                                                                 1.0

                                             IIBuddy/CompanionServieea        !   $27,620 1
                                                                                   $8,846        03
                                               DurableMediealEquipment
                                               ClientAdvoeaey                      $6,000        0.2
                                                                                             I
                                             II Respiratotyllterapist         I    $5,950    I   02

                                             IiPharmacist
                                               MedicalSuppIies
                                                        Assistant
                                                                              !    $3,276
                                                                                   $2,657
                                                                                             I
                                                                                                 0.1

                                                                                                 01

                                               ChildrenSummerCamp                  $2,240        0.1
                                                                              r              I
                                             IILegal Serviee                  ]    $1,998    I   0.1

                                             [! Outreach                      I     $840     I <0.1

                                               Total                          I $2,840,860       lwt
                                                                                                        *




Rhode Island has no consortia.




                                             27

South Carolina ($297,252) seined an                                                                                     %
                                                                        Category                         Spent
estimated 378 individuals through 3
consortia around the State. South                               MexiiealCare                           $189,639        63.8
Carolina     spent   nearly    two-thirds     of its            Pharmaceuticals                         $65,327        22.0
consortia  money in medical care.
                                                                CaseManagement                          $34,7s6        11.7
Specific consortia activities include
physician  training on HIV/AIDS                                 Other Counseling/Not a Mental
                                                                                                        $7,500          2.5
                                                                Health
therapies, participation in drug studies so
that qualified    patients    receive free                      Total                                  $297,2S2         100
medications,     establishing     support  groups,
and developing       brochures     to raise public
awareness     about services.

One barrier       mentioned       is that some      clients   are concerned         about    confidentially       when
participating     in support       groups.

Tennessee has no consortia.

Texas ($5,650,696)4 served clients through 26 consortia. Texas spent most                                  of its
consortia funding on case management, medical care, and food bank/home                                      delivered
meals. (See table next page.) Although they prepared narrative quarterly                                   reports,
they include no narrative with the year-end report, but simply a statement                                 of
objectives and goals and whether or not these goals have been met.

One service related activity described in detail was the creation of a support group for
male HIV-infected inmates.

Specific administrative          activities include:

    �       organizing a Lead Agency Workshop where representatives from consortia
            gathered to prepare guidelines for the HIV Service Delivery Areas and discuss
            areas of concern;

    �       making site visits to consortia to assure the timely and skilled delivery of
            medical and psychosocial services;

    Q       establishing and implementing a needs assessment process for the consortia;

    �       coordinating with State agencies;

    �       implementing       a planning/public hearing/public comment process; and,

    9       automating reporting from each consortia.


      4 Texas included money for the Home and Community-Based Care Option of Title II in its Consortia btego~.    This is also
 reflected in the table for Texas Consortia seMces by category.



                                                              28
Texas (Continued)                           r

                                                          CAegoty                      Spent          %
Texas requested guidance from HRSA
during the year on how Title II sites            Caae     Management                 $1,977,648       35.0
administer sliding scale fees and in-kind        MedicalCare                         $755,740         13.4
contributions. One of its quarterly              Food Bank/HomeDeliveredMeaIa        $386,048         6.8
reports also mentions that despite
                                                 Home Health Care                    $355,088         6.3
repeated requests, the State cannot
obtain information about how Ryan
White Title I and Title IIIb funds are      II   Other Counseling/Not Mental
                                                 Health                          I   $310,888     I   5“5    II
spent in Texas. As a result, Texas               Residential Hoapiee Care            $298,316         5.3
officials cannot be sure that consortia          Dental Care                         $259,888         4.6
semices are not duplicating services
                                                 In-Home Hoapiee Care                $253,916         4.5
already provided under these titles.
                                                 Tranapaation                        $203,636         3.6

                                                 Volunteers                          S198,648         3.5

                                                  Pharmaceuticals                     $149,684        2.7

                                                  Day/respite Care                   $144,020         2.6

                                                  Housing Aaaiatanee                  $88,020         1.6

                                                 Buddy/Companion Serwixa              $79,664         1.4

                                                  Education/Riik Reduetion            $73,404          1.3

                                                  Durable Medieal Equipment           $52,688         0,9

                                                  Client Advocacy                     $51,400         0,9

                                                  Sign Language/Interpretation        $12,000         0.2



                                                I Total                          I $5,650,696         100
                                                                                                             [




                                            29
Utah ($99,071) spent most of its funds

on mental health treatment and dental          II         Catezorv              I    Spent    I    %

care. There is no year-end report

                                               II
                                                    Mental Health                                 36.9
available for Utah.                                                                 $36,553
                                                    Treatmen~erapy/Counseling

                                                    Dental Care                     $21,441       21.6

                                                    Client Advocacy                 $12,381       12.5

                                                    Education/Risk Reduction        $10,063       10.2

                                                    Medical Care                    $6,657        6.7
                                                                                I             I
                                               IIEmergencyFinancialAaaiatance   I   $4,420    I   4.5

                                               II   Transportation              !   S2,628
                                                                                              I
                                                                                                  2.7


                                               IIFoodBank/HomeDeliveredMeala
                                                    Substance Abuse Treatment   !   $2,450    I   2.5



                                               I
                                                                                    $1,5s6        1.6
                                                    Pharmaceutical                   $s8s         0.9

                                               IITotal                          I   $99,067   I   100
                                                                                                         II


Vermont ($30,000) has one consortium.

All Vermont Title II consortium funds

                                                              C3tegory
              Spent         %
were spent on plaming and evaluation.
The consortium conducted a statewide                Planning and Evaluation
        $30,000       100
needs assessment, and as a result, is

developing a resource guide to HIV-

related services in Vermont.




Virginia ($871,219) has five consortia. The summary expenditure report indicates that
most Virginia Title II consortia funds were spent on case management and medical
care, (See table next page.)

Virginia cites the potential conflict of interest     as a constant struggle for consortia,
noting “it is difficult to assure that those who     will profit from the funds do not make
the decisions about awarding them. In many           areas, the only agencies that are
interested in belonging to the consortium are        those that expect to get financial
benefits.”




                                              30

Virginia (Continued)
                                                       Category               Spent     %
Other barriers faced by Virginia
                                           Case   Management                 $270,269   31.0   I
consortia include:                                                                             J

                                           Medkzd Care                       $250,000   28.7
  �    finding an objective committee      Administration                    $87,122    10.0   ~
       with the time to conduct peer
                                            Planning and Evaluation          $43,560    5.0
       reviews;
                                            Mental Health Treatment/         $30,000    3.4
                                            Therapy/Camaeiing
  �    determining the needs of clients
       through organized and scientific     Pharmaceuticals                  $26,768    3.1

       needs assessments;                   Emergency Fhtancial Asaiitance   $26,000    3.0

                                            Dental Care                      $25,000    2.9
   �   restricting administrative funds
                                            Outreach                         $25,000    2.9
       available to consortia and
       subcontractors; and,                 Other Counseliss@Not Mental      $15,000     1.7
                                            Heakh

   �   the regulation prohibiting           Transportation                   $15,000     1.7
       payments of physician consultant     Day/Respite Care                 $15,000     1.7
       fees when the patient had to be
                                            Home Health (kc                  $10,OOO     1.2
       hospitalized.
                                            Client Advocacy                   $7,000     0.8

                                            Housing Assistance                $6,000     0.7
                                            FoodBank/HomeDeliveredM~ls        $5,000     0.6
                                            Adoption/FosterCare               $4,000     0.5
                                            Eduation/RiskReduction            $3,000     0.3
                                            ResidentialHospiceCare            $2@O0      0.2
                                            DurabteMedicalEquipment           $2,000     0.2
                                            SubstanceAbuse Treatment          $1,500     0.2

                                            Buddy/Companion Semi=             $1,000     0.1

                                            Rehabilitation Care               $l,oact    0.1
                                            —
                                            Trd                              $871,219    100
                                            —




Virgin Islands have no consortia.




                                          31

Washington ($712,451) has three
consortia. The summary expenditure                     Categoty                I        Spent             %
report indicates that most Washington
Title II consortia funds were spent on       MediealCare                       I       $433,717   I       609

medical care. Washington did not             Substance Abuse Treatments        !       $101,249   I       14.2
submit a year-end report detailing            ClientAdvocacy                           $61,182 !          8.6
                                                                               I
specflc consortia activities.
                                              Planning and Evaluation                  $50,000            7.0

                                              Administration                           $48,762            6.8

                                              Housing Asaiatance                       $14,279            2.0
                                                                               !                  !
                                              Mental Health Treatmettt./                $3,262            05
                                              Thempy/Gxmaeling

                                              Total                                    $712,451           I(n)




West Virginia ($109,016) has one
consortium. Most West Virginia Title II                   Categoty                       Spent             %
consortium funds were spent on case
                                              Caae Management                           $59,175           54.3
management. Case managers are
serving 245 HIV infected clients.             Housing Aaaiatanee                        $16,473           151

                                              Pharmaeeuticala                           $11,228           103
The West Virginia consortium is
                                              Medieal Care                              $7,671             70
compiling a service directo~, but reports
problems with health care providers not       Administration
                                                                                   !    $4,825             44
                                                                                                      I
wanting publicity. Although these             FocalBank/Home Delivered Meala            $4,474             41
providers serve HIV clients, they do not
                                              Transportation                            $2,307             2.1
wish to be identified in the HIV service                                           1                  I
directoq being developed by the               Dental Care                          !    $1,240        I    11
consortium.                                   Insurance                            I     $905              0.8

                                              Emergency F!nancial Aaaktanee              $352              0.3
                                                                                   I
                                              In-Home Hospice Care                       $266              02
                                                                                                      ~
                                                                                   [
                                              Residential Hospice Care                   $100              01
                                                                                   I
                                                                                                      1




                                            32

Wisccmsin( $480,878) has nine consortia,
Most Wisconsin Title 11 consortia funds                  Category         I   Spent     I
                                                                                            %
were spent on case management and
medical care.
                                               ~    Management            I $165,552        34.4


Specific consortia activities include:
                                               Therapy/Cowehg
                                               ~
  �    translating English language            Planning and Evaluation        $51,247       10.7
       brochures into Hmong to increase                                                     8.2
                                               Administration                 $39,609
       client outreach;
                                               Buddy/Companion Servieea   I   $2s,367   I   5.3

   �   providing SUppOfi group scfices
       for HIV positive clients of the
       Milwaukee  Indian Health Center;
       and,
                                                Health

                                                Home Health Care               $6,000        1.2
   �    developing   a transportation
        project. This proj;ct: (1)             Outreach                      $5,600          1.2
        coordinates delivery of food to        Adoption/Foster tire          $4,375          0.9
        home-bound clients; (2) purchases
                                               Client Advocacy               $3,637          0.8
        cab service for individuals with
        special needs; (3) subsidizes          Total                        $430,878         100
        public and private transportation
        for clients capable
                      .     of using these
        services without volunteer-assistance; and, (4) arranges for volunteers to
        provide rides to patients for medical and mental health visits.

 Challenges faced by Wisconsin consortia include the need for wider representation of
 multicultural communities within the HIV care consortia, the limited finding available
 to meet the level of need exhibited by HIV-positive persons and their families, the
 lack of health and human service providers willing or able to provide HIV-related
 sexvices in many areas of the State, and the need for communication with other
 consortia in Wisconsin and across the nation.




                                              33

Wyoming ($48,576) submitted no report
on the number of consortia or their                    Category                    Spent         %
                                                                               I             I          !I
specific activities. More than two-thirds
                                              PrimaryCare                          $33,336       68.6
of Wyoming Title 11 consortia funds
were spent on primary medical care.           CaseManagement                       $8,%2         18.4

                                            n Dental

                                            II MentalHealth Treatment/
                                                                               I
                                                                               I
                                                                                   $1,790

                                                                                   $1,422
                                                                                             !
                                                                                             I
                                                                                                 3.7

                                                                                                 2.9
                                                                                                        I
                                                                                                        II

                                            11
                                             Therapy/Counseling                I             !          II
                                              Food Bank/Home      DelNeA M=~       $1,3s4        2.8

                                              Transportation                       $1,0s6        2.2


                                            ILHome Health Care

                                              In-Home Hospice Care
                                                                               !    $360

                                                                                    S200
                                                                                             I
                                                                                                 0.7

                                                                                                 0.4
                                                                                                        II
                                              Day/Respite Care                      $36          0.1

                                              Total                                $48,576       100
                                                                               I                        II




                                            34
    APPENDIX           A

HIV-RELATIDSERVICE   CATEGORIl=




               A-1
                                    HIV-RELATED        SERWCE       CATEGORIES



1.    primary f$fedi~l Care: provision of routine, non-emergency,         non-inpatient,    non-specialized     medical ar

‘?
-.	   Dental Care: Diagnostic       and therapeutic   services   rendered by dentists,     dental hygienists,    and sim]
      professional practitioners.

3.    Mental Health Therapy/Counseling: Psychological and psychiatric treatment and counseling semic
      including individualand group counseling, provided by a mental heahh professional licensed or authoriz
      within the State, including psychiatrists, psychologists, clinical nurse specialists, social Workem. a
      counselors.

4.	   Case Management: Client-centered service that links clients with health care and psychoscmal sem~
      in a manner that ensures timely, coordinated access to medically appropriate levels of care and supp
      services, and continuity of are. Key activities include: assessment of the client’s needs and personal supp
      systems; development of a comprehensive, individualized sewice plan; coordination of the sm Ices requl
      to implement the plan; client monitoring to assess the efficacy of the plan; and periodic rc-evaluation
      adaptation of the plan as necessary over the life of the client.

5.	   Substance Abuse Treatment/Counseling:           Provision of treatment and/or counseling to address substa
      abuse (including alcohol) problems.

6.	   Rehabilitation Care: Sexvices provided by a licensed or authorized professional in aaxxdance wit!
      individualized plan of care which is ~intended to improve or maintain a client’s quality of Iife and opt
      capacity for self-care. This definition includes physical therapy, speech pathology, and low-v ision [rai,
      senices.

7.€   Home Health Care: Therapeutic, nursing, suppon]ve and/or compensatory health sewices provided
      Iicensedmtified   home health agency in a home/restdcntial setting in accordance w~th a w
      individualtid plan of care established by a case management team that includes appropriate heait h
      professionals.  Component serviecs are defined separately @ara-professional, professional and speci
      care).

      a. Pata- Professional Care: homemaker, home bith aide, and personal/attendant care
      b. Professional Care: routine and skilled nursm~ rehabilitation and mental health
      c.	 Specialized Care: intravenous and aerosoltzed medicat Ion treatments, diagnostic test mg, pa
      feedings and other high tech scmiax
      d.	 Durable medical equipment: prosthetics. dcvias and quipment used by clients in a home/res
      setting, e.g., wheelchairs, inhalation therapy equipment or hospital beds.


8.€   Home-based hospice care: numing care, counselin~ physician services, and palliative therapxutl= p
      by a hospice program to patients in the terminal stages of illness in their home setting.




                                                           A-2
9.    Support se~ices:

      a. Adoption/Foster    Care Assistance: assistance in placing children whose age is less than 20 and ~hc
      parents are unable to care for them because of l-iIV-related illness or death, in temporary (foster care) or
      permanent  (adoption)  homes.

      b.	 Buddy/Companion      Services: activities provided by volunteers/peers to assist the client in Performing
      household or personal tasks, and providing mental and social suppw to combat the negative effects of
      loneliness and isolation.

      c.	 Client advocacy: assessment of individual need, provision of advics and assistance obtaining medical,
      social, community, legal, financial and other needed s.mites. Advocacy does not involve coordination and
      follow-up on medical treatments.

      d. Counseling: counseling serviax other than mental health therapykounseling provided to cllents, family
      andor friends by non-licensed mental health counselors. May include caregivcr support, bereavement
      counseling, drop-in counseling, nutrition counseling or other support group activities.

      e. Day and respite care; Residential or home-based non-medical assistance designed to rclleve the pnmam
      carcgiver responsible for providing day-to-day care of client or client’s child.

      f. Direct Financial Assistance:     provision of short-term    payments for food, housing, rent, utditie
      medications or other resources.

      g. Education/Risk khction:      counseling or preparation/distribution of materials educate cl ]ents abo
      methods to reduce the spread of HW, and information about available medial and psycho-soaal supp~-
      Sewiccs.                           .

      h. Food bank/Home     Delivered Meals: provision of actual food or meals, not finances to purchase food
      meals.

      i. Housing Related services: this includes: assistance in l~ting and obtaining suitable, on-going
      transitional shelter (including costs associated with finding a residence and/or subsidized rent), ~
      residential housing services, which arc the provision of housing assistance in a group home setting.

      j.	 U@ ksistance:     assistance provided to individuals with respect to wills, fimeml arrangements, ma
      related to protection of civii rights, and other relevant legal needs experienced by clients.

      k. Sign Language and Interpretation Services: assistance provided to clients and/or Carcgivets Wt
      language impaired (sign language) or do not speak English as their primary language (in[erprc
      services).

      1.Transportation: conveyance scxviccs provided to a client in order to acczss health care or    psycho-
      support semiccs. May be provided routinely or on an emergency basis.

      m. Other: Support services Not Listed Above

10.   In-Patient   Personnel Costs
                                                       A-3
